TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Treasury Inspector General for Tax
                Administration – Federal Information Security
                Management Act Report for Fiscal Year 2013



                                      September 27, 2013

                              Reference Number: 2013-20-128




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number / 202-622-6500
 E-mail Address / TIGTACommunications@tigta.treas.gov
 Website        / http://www.treasury.gov/tigta
                                                   HIGHLIGHTS


TREASURY INSPECTOR GENERAL FOR                               Continuous Monitoring Management.
TAX ADMINISTRATION – FEDERAL                                 Risk Management.
INFORMATION SECURITY
MANAGEMENT ACT REPORT FOR                                    Plan of Action and Milestones.
FISCAL YEAR 2013                                             Contingency Planning.
                                                             Contractor Systems.
Highlights                                                   Security Capital Planning.
                                                      Three of the nine security program areas, while
Issued on September 27, 2013
                                                      generally compliant, were not fully effective due
                                                      to one program attribute that was missing or not
Highlights of Reference Number: 2013-20-128
                                                      working as intended:
to the Department of the Treasury, Office of the
Inspector General, Assistant Inspector General               Incident Response and Reporting.
for Audit.
                                                             Security Training.
IMPACT ON TAXPAYERS                                          Remote Access Management.
The IRS collects and maintains a significant          However, two of the 11 security program areas
amount of personal and financial information on       were not compliant with FISMA requirements
each taxpayer. The Federal Information                and did not meet the level of performance
Security Management Act (FISMA) was enacted           specified by the DHS’s FY 2013 Inspector
to strengthen the security of information and         General Federal Information Security
systems within Federal Government agencies.           Management Act Reporting Metrics due to the
Until the IRS takes steps to fully implement all      majority of the DHS-specified attributes being
11 security program areas covered by FISMA,           missing or not working as intended:
taxpayer data will remain vulnerable to
inappropriate use, modification, or disclosure,              Configuration Management.
possibly without being detected.
                                                             Identity and Access Management.
WHY TIGTA DID THE AUDIT
                                                      WHAT TIGTA RECOMMENDED
As part of the FISMA legislation, the Offices of
                                                      TIGTA does not include recommendations as
Inspectors General are required to perform an
                                                      part of its annual FISMA evaluation and reports
annual independent evaluation of each Federal
                                                      only on the level of performance achieved by the
agency’s information security programs and
                                                      IRS using the guidelines issued by the DHS for
practices. This report presents the results of
                                                      the applicable FISMA evaluation period.
TIGTA’s FISMA evaluation of the IRS’s
information security program for Fiscal
Year (FY) 2013.
WHAT TIGTA FOUND
Based on our FY 2013 FISMA evaluation,
TIGTA found that nine of 11 security program
areas were generally compliant with the FISMA
requirements. Six of the nine security program
areas included all of the program attributes
specified by the Department of Homeland
Security’s (DHS) FY 2013 Inspector General
Federal Information Security Management Act
Reporting Metrics:
                                                   DEPARTMENT OF THE TREASURY
                                                          WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 September 27, 2013


 MEMORANDUM FOR ASSISTANT INSPECTOR GENERAL FOR AUDIT
                OFFICE OF THE INSPECTOR GENERAL
                DEPARTMENT OF THE TREASURY


 FROM:                           Michael E. McKenney
                                 Acting Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Treasury Inspector General for Tax
                                 Administration – Federal Information Security Management Act Report
                                 for Fiscal Year 2013 (Audit # 201320001)

 This report presents the results of the Treasury Inspector General for Tax Administration’s
 Federal Information Security Management Act1 evaluation of the Internal Revenue Service for
 Fiscal Year 2013. The Act requires the agency’s Inspector General to perform an annual
 independent evaluation of the agency’s information security program and practices to determine
 the effectiveness of such program and practices.
 The report was forwarded to the Treasury Inspector General for consolidation into a report issued
 to the Department of the Treasury Chief Information Officer. Copies of this report are also being
 sent to the IRS managers affected by the report results.
 If you have any questions, please contact me or Alan R. Duncan, Assistant Inspector General for
 Audit (Security and Information Technology Services).




 1
     Title III of the E-Government Act of 2002, Pub. L. No. 107-374, 116 Stat. 2899.
                      Treasury Inspector General for Tax Administration – Federal
                   Information Security Management Act Report for Fiscal Year 2013




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          The Internal Revenue Service’s Information Security Program
          Generally Complies With the Federal Information Security
          Management Act, but Improvements Are Needed ....................................... Page 3

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 18
          Appendix II – Major Contributors to This Report ........................................ Page 20
          Appendix III – Report Distribution List ....................................................... Page 21
          Appendix IV – Treasury Inspector General for Tax Administration
          Information Technology Security-Related Reports Issued During the
          Fiscal Year 2013 Evaluation Period ............................................................. Page 22
             Treasury Inspector General for Tax Administration – Federal
          Information Security Management Act Report for Fiscal Year 2013




                            Abbreviations

CIO                  Chief Information Officer
CM                   Continuous Monitoring
DHS                  Department of Homeland Security
FCD1                 Federal Continuity Directive 1
FIPS                 Federal Information Processing Standards
FISMA                Federal Information Security Management Act
FY                   Fiscal Year
GAO                  Government Accountability Office
HSPD-12              Homeland Security Presidential Directive-12
IP                   Internet Protocol
IRS                  Internal Revenue Service
IT                   Information Technology
NIST                 National Institute of Standards and Technology
OIG                  Office of the Inspector General
OMB                  Office of Management and Budget
PIV                  Personal Identity Verification
POA&M                Plan of Action and Milestones
SCAP                 Security Content Automation Protocol
SP                   Special Publication
TIGTA                Treasury Inspector General for Tax Administration
US-CERT              United States Computer Emergency Response Team
USGCB                United States Government Configuration Baseline
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2013




                                           Background

The Internal Revenue Service (IRS) collects and maintains a significant amount of personal and
financial information on each taxpayer. As custodians of taxpayer information, the IRS has an
obligation to protect the confidentiality of this sensitive information against unauthorized access
or loss. Otherwise, taxpayers could be exposed to invasion of privacy and financial loss or
damage from identity theft or other financial crimes.
The Federal Information Security Management Act (FISMA) of 20021 was enacted to strengthen
the security of information and systems within Federal agencies. Under the FISMA, agency
heads are responsible for providing information security protections commensurate with the risk
and magnitude of harm resulting from the unauthorized access, use, disclosure, disruption,
modification, or destruction of information and information systems. Agency heads are also
responsible for complying with the requirements of the FISMA, related Office of Management
and Budget (OMB) policies, and National Institute of Standards and Technology (NIST)
procedures, standards, and guidelines.
One of the provisions of the FISMA requires the agencies to have an annual independent
evaluation of their information security programs and practices performed by the agency
Inspector General or an independent external auditor as determined by the Inspector General.2
The OMB uses the information from the agencies and independent evaluations in its FISMA
oversight capacity to assess agency-specific and Federal Governmentwide security performance,
develop its annual security report to Congress, and assist in improving and maintaining adequate
agency security performance.
In July 2010, the OMB delegated its responsibility to the Department of Homeland Security
(DHS) for the collection of annual FISMA responses.3 The DHS issued the FY 2013 Inspector
General Federal Information Security Management Act Reporting Metrics on
November 30, 2012, for Fiscal Year4 (FY) 2013 FISMA responses. These reporting metrics
specified the security program areas for the Inspectors General to evaluate and listed specific
attributes that each security program area should include. Detailed information on our audit


1
  Title III of the E-Government Act of 2002, Pub. L. No. 107-374, 116 Stat. 2899.
2
  The FISMA evaluation period for the Department of the Treasury is July 1, 2012, through June 30, 2013.
3
  In OMB Memorandum M-10-28, Clarifying Cybersecurity Responsibilities and Activities of the Executive Office of
the President and the Department of Homeland Security, OMB delegated the responsibility for various operational
aspects of Federal cyber security to the DHS, including overseeing the agencies’ compliance with the FISMA and
developing analyses for the OMB to assist in the development of the FISMA annual report.
4
  A 12-consecutive-month period ending on the last day of any month. The Federal Government’s fiscal year begins
on October 1 and ends on September 30.
                                                                                                        Page 1
                 Treasury Inspector General for Tax Administration – Federal
              Information Security Management Act Report for Fiscal Year 2013



objective, scope, and methodology is presented in Appendix I. Major contributors to this report
are listed in Appendix II.




                                                                                         Page 2
                       Treasury Inspector General for Tax Administration – Federal
                    Information Security Management Act Report for Fiscal Year 2013




                                         Results of Review

The Internal Revenue Service’s Information Security Program
Generally Complies With the Federal Information Security
Management Act, but Improvements Are Needed
The DHS FY 2013 Inspector General Federal Information Security Management Act Reporting
Metrics that were issued on November 30, 2012, specified 11 information security program areas
and a total of 98 attributes within the 11 areas for the Inspectors General to evaluate and
determine compliance with FISMA requirements. The 11 information security program areas
are as follows:
          Continuous Monitoring Management.
          Configuration Management.
          Identity and Access Management.
          Incident Response and Reporting.
          Risk Management.
          Security Training.
          Plan of Action and Milestones (POA&M).
          Remote Access Management.
          Contingency Planning.
          Contractor Systems.
          Security Capital Planning.
To complete our FISMA evaluation, we reviewed a representative judgmental sample5 of
10 major IRS information systems. For each system in the sample, we assessed the risk
management process, the annual testing of controls for continuous monitoring, the testing of
information technology contingency plans, and the plan of action and milestones process. In
addition, we evaluated the IRS’s enterprise-level processes over configuration management,
identity and access management, incident response and reporting, security training, remote
access management, contractor systems, and security capital planning. During the FY 2013
FISMA evaluation period, we also completed seven audits, as shown in Appendix IV, which
evaluated various aspects of information security at the IRS. We considered the results of these

5
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                                Page 3
                    Treasury Inspector General for Tax Administration – Federal
                 Information Security Management Act Report for Fiscal Year 2013



audits in our evaluation, as well as results from ongoing audits for which draft reports were
issued to the IRS by August 8, 2013.
Based on our FY 2013 FISMA evaluation, we determined that nine of the 11 security program
areas were generally compliant with the FISMA requirements. The following six security
program areas included all of the program attributes specified by the DHS’s FY 2013 Inspector
General Federal Information Security Management Act Reporting Metrics:
       Continuous Monitoring Management.
       Risk Management.
       Plan of Action and Milestones.
       Contingency Planning.
       Contractor Systems.
       Security Capital Planning.
The following three security program areas, while generally compliant, were not fully effective
due to one program attribute that was missing or not working as intended:
       Incident Response and Reporting.
       Security Training.
       Remote Access Management.
However, two security program areas were not compliant with FISMA requirements and did not
meet the level of performance specified by the DHS’s FY 2013 Inspector General Federal
Information Security Management Act Reporting Metrics due to the majority of the
DHS-specified attributes being missing or not working as intended:
       Configuration Management.
       Identity and Access Management
Until the IRS takes steps to improve its security program deficiencies and fully implement all
11 security program areas required by FISMA, taxpayer data will remain vulnerable to
inappropriate use, modification, or disclosure, possibly without being detected.
The following matrix6 presents TIGTA’s results for the 11 security program areas as specified by
the DHS’s FY 2013 Inspector General Federal Information Security Management Act Reporting
Metrics. We have provided comments to support the “no” responses. TIGTA’s results will be



6
 Many abbreviations in this matrix are used as presented in the original document and are not defined therein.
However, we have provided the definitions in the Abbreviations page after the Table of Contents of this report.

                                                                                                            Page 4
                 Treasury Inspector General for Tax Administration – Federal
              Information Security Management Act Report for Fiscal Year 2013



consolidated with the Department of the Treasury Office of Inspector General’s results of
non-IRS bureaus and reported to the OMB.




                                                                                            Page 5
                    Treasury Inspector General for Tax Administration – Federal
                 Information Security Management Act Report for Fiscal Year 2013



1: Continuous Monitoring
Status of Continuous            1.1. Has the organization established an enterprisewide continuous monitoring
Monitoring Program                   program that assesses the security state of information systems that is
[check one: Yes or No]    Yes        consistent with FISMA requirements, OMB policy, and applicable NIST
                                     guidelines? Besides the improvement opportunities that may have been
                                     identified by the OIG, does the program include the following attributes? 
                                    1.1.1. Documented policies and procedures for continuous monitoring
                          Yes
                                    (NIST SP 800-53: CA-7).
                                    1.1.2. Documented strategy and plans for continuous monitoring
                          Yes
                                    (NIST SP 800-37 Rev 1, Appendix G).
                                    1.1.3. Ongoing assessments of security controls (system-specific, hybrid, and
                          Yes       common) that have been performed based on the approved continuous
                                    monitoring plans (NIST SP 800-53, NIST 800-53A).
                                    1.1.4. Provides authorizing officials and other key system officials with
                                    security status reports covering updates to security plans and security
                          Yes       assessment reports, as well as a common and consistent POA&M program
                                    that is updated with the frequency defined in the strategy and/or plans
                                    (NIST SP 800-53, 800-53A).
                                1.2. Please provide any additional information on the effectiveness of the
                                organization’s Continuous Monitoring Management Program that was not noted in
                                the questions above.
                                TIGTA Comments: The IRS’s annual assessments of system security controls are
                                predominantly manual. The IRS’s strategy for automating continuous monitoring
                                includes the implementation of a tool called Archer, which will be a central
                                repository and analysis engine for assessment results, such as automated
                                vulnerability scans. Archer is in its initial development phases.


2: Configuration Management
Status of Configuration         2.1 Has the organization established a security configuration management
Management Program                  program that is consistent with FISMA requirements, OMB policy, and
[check one: Yes or No]    No        applicable NIST guidelines? Besides the improvement opportunities that may
                                    have been identified by the OIG, does the program include the following
                                    attributes? 
                          Yes       2.1.1. Documented policies and procedures for configuration management.
                          Yes       2.1.2. Defined standard baseline configurations.




                                                                                                           Page 6
   Treasury Inspector General for Tax Administration – Federal
Information Security Management Act Report for Fiscal Year 2013




             2.1.3. Assessments of compliance with baseline configurations.
             TIGTA Comments: The IRS has not deployed automated mechanisms to
             centrally manage, apply, and verify baseline configuration settings and
             produce FISMA compliance reports using the NIST-defined Security Content
      No     Automation Protocol (SCAP) format. During FY 2013, the IRS was in the
             process of implementing the Security Compliance Posture Monitoring and
             Reporting application, which is intended to provide the ability to assess
             compliance with baseline security controls in a SCAP-compliant format on an
             enterprisewide level; however, its implementation has been delayed.
             2.1.4. Process for timely (as specified in organization policy or standards)
             remediation of scan result deviations.

      No     TIGTA Comments: The IRS has not yet fully implemented vulnerability
             scanning tools and processes on all systems to ensure timely remediation of
             scan result deviations. Also, the IRS processes to share vulnerability
             information to system owners and administrators are still under development.
             2.1.5. For Windows-based components, USGCB secure configuration settings
      Yes    are fully implemented, and any deviations from USGCB baseline settings are
             fully documented.
             2.1.6. Documented proposed or actual changes to the hardware and software
             configurations.
             TIGTA Comments: The IRS has not yet fully implemented configuration and
      No     change management controls to ensure that proposed or actual changes to
             hardware and software configurations are documented and controlled. During
             FY 2013, the Enterprise Services organization was in the process of
             implementing the Enterprise Configuration Management System to provide
             an enterprise solution for configuration and change management.
             2.1.7. Process for the timely and secure installation of software patches.
             TIGTA Comments: The IRS has not yet fully implemented a process to
             ensure timely and secure installation of software patches. During FY 2013,
             the IRS was in the process of evaluating tools that have the capability to
      No     perform automated patch management activities across a multitude of
             technologies and feed results to a centralized location. During the FY 2013
             FISMA evaluation period, TIGTA and the Government Accountability Office
             (GAO) identified critical patches that were missing or installed in an untimely
             manner on IRS computers.
             2.1.8. Software assessing (scanning) capabilities are fully implemented.
             (NIST SP 800-53: RA-5, SI-2)
      No
             TIGTA Comments: Monthly vulnerability scans are not being performed on
             all systems.



                                                                                     Page 7
                    Treasury Inspector General for Tax Administration – Federal
                 Information Security Management Act Report for Fiscal Year 2013



                                   2.1.9. Configuration-related vulnerabilities, including scan findings, have
                                   been remediated in a timely manner, as specified in organization policy or
                                   standards. (NIST SP 800-53: CM-4, CM-6, RA-5, SI-2)
                                   TIGTA Comments: The IRS has not yet fully implemented vulnerability
                         No        scanning tools and processes on all systems to ensure timely remediation of
                                   scan result deviations. Also, IRS processes to share vulnerability information
                                   with system owners and administrators are still under development. During
                                   the FY 2013 FISMA evaluation period, TIGTA and the GAO identified
                                   servers that were not consistently configured to have strong controls.
                                   2.1.10. Patch management process is fully developed, as specified in
                                   organization policy or standards. (NIST SP 800-53: CM-3, SI-2)
                                   TIGTA Comments: The IRS has not yet implemented a process to ensure
                                   timely and secure installation of software patches. During FY 2013, the IRS
                         No        was in the process of evaluating tools that have the capability to perform
                                   automated patch management activities across a multitude of technologies
                                   and feed results to a centralized location. During FY 2013, TIGTA and the
                                   GAO identified critical patches that were missing or installed in an untimely
                                   manner on IRS computers.
                               2.2. Please provide any additional information on the effectiveness of the
                               organization’s Configuration Management Program that was not noted in the
                               questions above.


3: Identity and Access Management
Status of Identity and         3.1 Has the organization established an identity and access management program
Access Management                  that is consistent with FISMA requirements, OMB policy, and applicable
Program [check one:      No        NIST guidelines and identifies users and network devices? Besides the
Yes or No]                         improvement opportunities that may have been identified by the OIG, does
                                   the program include the following attributes? 
                                   3.1.1. Documented policies and procedures for account and identity
                         Yes
                                   management. (NIST SP 800-53: AC-1)
                                   3.1.2. Identifies all users, including Federal employees, contractors, and
                                   others who access organization systems. (NIST SP 800-53: AC-2)

                         No        TIGTA Comments: The IRS has not fully implemented unique user
                                   identification that complies with Homeland Security Presidential Directive-12
                                   (HSPD-12). In addition, five of our 10 sampled systems did not have the
                                   NIST SP 800-53 AC-2 security control in place.

                                   3.1.3. Identifies when special access requirements (e.g., multifactor
                                   authentication) are necessary.
                         No
                                   TIGTA Comments: The IRS did not fully implement multifactor
                                   authentication in compliance with HSPD-12.



                                                                                                           Page 8
   Treasury Inspector General for Tax Administration – Federal
Information Security Management Act Report for Fiscal Year 2013



             3.1.4. If multifactor authentication is in use, it is linked to the organization’s
             PIV program where appropriate. (NIST SP 800-53: IA-2)

      No     TIGTA Comments: The IRS has not fully deployed multifactor
             authentication via the use of an HSPD-12 PIV card for all users for network
             and local access to nonprivileged or privileged accounts as required by
             HSPD-12.
             3.1.5. Organization has planned for implementation of PIV for logical access
             in accordance with government policies. (HSPD-12, FIPS 201, OMB M-05-
             24, OMB M-07-06, OMB M-08-01, OMB M-11-11)
      No     TIGTA Comments: Although the IRS is working to achieve its goal of
             85 percent mandatory PIV use by the end of Calendar Year 2013,
             considerable challenges still exist for achieving full compliance due to its
             legacy environment.
             3.1.6. Organization has adequately planned for implementation of PIV for
      Yes    physical access in accordance with government policies. (HSPD-12,
             FIPS 201, OMB M-05-24, OMB M-07-06, OMB M-08-01, OMB M-11-11)
             3.1.7. Ensures that the users are granted access based on needs and
             separation-of-duties principles.
      No     TIGTA Comments: During FY 2013, TIGTA and the GAO identified users
             that had been granted more access than needed and instances where the
             separation-of-duties principle was not enforced.
             3.1.8. Identifies devices with IP addresses that are attached to the network and
             distinguishes these devices from users. (IP phones, faxes, and printers are
             examples of devices attached to the network that are distinguishable from
      No     desktops, laptops, or servers that have user accounts.)
             TIGTA Comments: During FY 2013, the IRS was still in the process of
             implementing tools to achieve automated asset discovery and asset
             management.
             3.1.9. Identifies all user and non-user accounts. (Refers to user accounts that
             are on a system. Data user accounts are created to pull generic information
      Yes
             from a database or a guest/anonymous account for generic login purposes.
             They are not associated with a single user or a specific group of users.)
             3.1.10. Ensures that accounts are terminated or deactivated once access is no
             longer required.
      No     TIGTA Comments: During FY 2013, TIGTA and the GAO identified
             systems that do not have controls in place to ensure that accounts are
             terminated or deactivated once access is no longer needed.
      Yes    3.1.11. Identifies and controls use of shared accounts.




                                                                                        Page 9
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2013



                               3.2. Please provide any additional information on the effectiveness of the
                               organization’s Identity and Access Management that was not noted in the
                               questions above.


4: Incident Response and Reporting
Status of Incident             4.1 Has the organization established an incident response and reporting program
Response and Reporting             that is consistent with FISMA requirements, OMB policy, and applicable
                         Yes
Program [check one:                NIST guidelines? Besides the improvement opportunities that may have been
Yes or No]                         identified by the OIG, does the program include the following attributes? 
                                   4.1.1. Documented policies and procedures for detecting, responding to, and
                         Yes
                                   reporting incidents. (NIST SP 800-53: IR-1)
                         Yes       4.1.2. Comprehensive analysis, validation, and documentation of incidents.
                                   4.1.3. When applicable, reports to US-CERT within established time frames.
                                   (NIST SP 800-53, 800-61 OMB M-07-16, M-06-19)
                         No        TIGTA Comments: The IRS did not always report incidents involving
                                   Personally Identifiable Information to the US-CERT within established time
                                   frames due to resource constraints.
                                   4.1.4. When applicable, reports to law enforcement within established time
                         Yes
                                   frames. (NIST SP 800-61)
                                   4.1.5. Responds to and resolves incidents in a timely manner, as specified in
                         Yes       organization policy or standards, to minimize further damage.
                                   (NIST SP 800-53, 800-61; OMB M-07-16, M-06-19)
                                   4.1.6. Is capable of tracking and managing risks in a virtual/cloud
                         Yes
                                   environment, if applicable.
                         Yes       4.1.7. Is capable of correlating incidents.
                                   4.1.8. Has sufficient incident monitoring and detection coverage in
                         Yes       accordance with Government policies. (NIST SP 800-53, 800-61;
                                   OMB M-07-16, M-06-19)
                               4.2. Please provide any additional information on the effectiveness of the
                               organization’s Incident Management Program that was not noted in the questions
                               above.


5: Risk Management
Status of Risk                 5.1 Has the organization established a risk management program that is consistent
Management Program                 with FISMA requirements, OMB policy, and applicable NIST guidelines?
                         Yes
[check one: Yes or No]             Besides the improvement opportunities that may have been identified by the
                                   OIG, does the program include the following attributes? 




                                                                                                            Page 10
   Treasury Inspector General for Tax Administration – Federal
Information Security Management Act Report for Fiscal Year 2013



             5.1.1. Documented policies and procedures for risk management, including
      Yes
             descriptions of the roles and responsibilities of participants in this process.
             5.1.2. Addresses risk from an organization perspective with the development
      Yes    of a comprehensive governance structure and organizationwide risk
             management strategy as described in NIST SP 800-37, Rev.1.
             5.1.3. Addresses risk from a mission and business process perspective and is
      Yes    guided by the risk decisions from an organizational perspective, as described
             in NIST SP 800-37, Rev. 1.
             5.1.4. Addresses risk from an information system perspective and is guided by
      Yes    the risk decisions at the organizational perspective and the mission and
             business perspective, as described in NIST SP 800-37, Rev. 1.
      Yes    5.1.5. Has an up-to-date system inventory.
             5.1.6. Categorizes information systems in accordance with Government
      Yes
             policies.
      Yes    5.1.7. Selects an appropriately tailored set of baseline security controls.
             5.1.8. Implements the tailored set of baseline security controls and describes
      Yes    how the controls are employed within the information system and its
             environment of operation.
             5.1.9. Assesses the security controls using appropriate assessment procedures
             to determine the extent to which the controls are implemented correctly,
      Yes
             operating as intended, and producing the desired outcome with respect to
             meeting the security requirements for the system.
             5.1.10. Authorizes information system operation based on a determination of
             the risk to organizational operations and assets, individuals, other
      Yes
             organizations, and the Nation resulting from the operation of the information
             system and the decision that this risk is acceptable.
             5.1.11. Ensures that information security controls are monitored on an
             ongoing basis, including assessing control effectiveness, documenting
      Yes    changes to the system or its environment of operation, conducting security
             impact analyses of the associated changes, and reporting the security state of
             the system to designated organizational officials.
             5.1.12. Information-system-specific risks (tactical), mission/business-specific
      Yes    risks, and organizational-level (strategic) risks are communicated to
             appropriate levels of the organization.
             5.1.13. Senior officials are briefed on threat activity on a regular basis by
      Yes
             appropriate personnel (e.g., Chief Information Security Officer).
             5.1.14. Prescribes the active involvement of information system owners and
             common control providers, chief information officers, senior information
      Yes
             security officers, authorizing officials, and other roles as applicable in the
             ongoing management of information-system-related security risks.


                                                                                     Page 11
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2013




                                   5.1.15. Security authorization package contains system security plan, security
                         Yes       assessment report, and POA&M in accordance with Government policies.
                                   (NIST SP 800-18, 800-37)
                                   5.1.16. Security authorization package contains accreditation boundaries,
                         Yes       defined in accordance with Government policies, for organization information
                                   systems.
                               5.2. Please provide any additional information on the effectiveness of the
                               organization’s Risk Management Program that was not noted in the questions
                               above.


6: Security Training
Status of Security             6.1 Has the organization established a security training management program that
Training Program                   is consistent with FISMA requirements, OMB policy, and applicable NIST
                         Yes
[check one: Yes or No]             guidelines? Besides the improvement opportunities that may have been
                                   identified by the OIG, does the program include the following attributes? 
                                   6.1.1. Documented policies and procedures for security awareness training.
                         Yes
                                   (NIST SP 800-53: AT-1)
                                   6.1.2. Documented policies and procedures for specialized training for users
                         Yes
                                   with significant information security responsibilities.
                                   6.1.3. Security training content based on the organization and roles, as
                         Yes
                                   specified in organization policy or standards.
                                   6.1.4. Identification and tracking of the status of security awareness training
                         Yes       for all personnel (including employees, contractors, and other organization
                                   users) with access privileges that require security awareness training.
                                   6.1.5. Identification and tracking of the status of specialized training for all
                                   personnel (including employees, contractors, and other organization users)
                                   with significant information security responsibilities that require specialized
                         No        training.
                                   TIGTA Comments: The IRS did not track completions of specialized
                                   information technology security training by contractors during the FY 2013
                                   FISMA evaluation period.
                                   6.1.6. Training material for security awareness training contains appropriate
                         Yes
                                   content for the organization. (NIST SP 800-50, 800-53)
                               6.2. Please provide any additional information on the effectiveness of the
                               organization’s Security Training Program that was not noted in the questions
                               above.




                                                                                                           Page 12
                  Treasury Inspector General for Tax Administration – Federal
               Information Security Management Act Report for Fiscal Year 2013



7: POA&M
Status of POA&M             7.1 Has the organization established a POA&M program that is consistent with
Program [check one:             FISMA requirements, OMB policy, and applicable NIST guidelines and
Yes or No]            Yes       tracks and monitors known information security weaknesses? Besides the
                                improvement opportunities that may have been identified by the OIG, does
                                the program include the following attributes? 
                                7.1.1. Documented policies and procedures for managing IT security
                      Yes       weaknesses discovered during security control assessments and that require
                                remediation.
                      Yes       7.1.2. Tracks, prioritizes, and remediates weaknesses.
                      Yes       7.1.3. Ensures that remediation plans are effective for correcting weaknesses.
                      Yes       7.1.4. Establishes and adheres to milestone remediation dates.
                                7.1.5. Ensures that resources and ownership are provided for correcting
                      Yes
                                weaknesses.
                                7.1.6. POA&Ms include security weaknesses discovered during assessments
                                of security controls and that require remediation (do not need to include
                      Yes
                                security weaknesses due to a risk-based decision to not implement a security
                                control). (OMB M-04-25)
                                7.1.7. Costs associated with remediating weaknesses are identified.
                      Yes
                                (NIST SP 800-53: PM-3; OMB M-04-25)
                                7.1.8. Program officials report progress on remediation to the CIO on a
                                regular basis, at least quarterly, and the CIO centrally tracks, maintains, and
                      Yes
                                independently reviews/validates the POA&M activities at least quarterly.
                                (NIST SP 800-53: CA-5; OMB M-04-25)
                            7.2. Please provide any additional information on the effectiveness of the
                            organization’s POA&M Program that was not noted in the questions above.


8: Remote Access Management
Status of Remote            8.1 Has the organization established a remote access program that is consistent
Access Management               with FISMA requirements, OMB policy, and applicable NIST guidelines?
                      Yes
Program [check one:             Besides the improvement opportunities that may have been identified by the
Yes or No]                      OIG, does the program include the following attributes? 
                                8.1.1. Documented policies and procedures for authorizing, monitoring, and
                      Yes
                                controlling all methods of remote access. (NIST SP 800-53: AC-1, AC-17)
                                8.1.2. Protects against unauthorized connections or subversion of authorized
                      Yes
                                connections.




                                                                                                       Page 13
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2013



                                   8.1.3. Users are uniquely identified and authenticated for all access.
                                   (NIST SP 800-46, Section 4.2, Section 5.1)
                                   TIGTA Comments: System administrators of the virtual private network
                         No        infrastructure and server components do not use NIST-compliant multifactor
                                   authentication for local or network access to privileged accounts. In addition,
                                   virtual private network server components do not comply with password
                                   requirements.
                                   8.1.4. Telecommuting policy is fully developed. (NIST SP 800-46, Section
                         Yes
                                   5.1)
                                   8.1.5. If applicable, multifactor authentication is required for remote access.
                         Yes
                                   (NIST SP 800-46, Section 2.2, Section 3.3)
                                   8.1.6. Authentication mechanisms meet NIST SP 800-63 guidance on remote
                         Yes
                                   electronic authentication, including strength mechanisms.
                                   8.1.7. Defines and implements encryption requirements for information
                         Yes
                                   transmitted across public networks.
                                   8.1.8. Remote access sessions, in accordance to OMB M-07-16, are timed-out
                         Yes
                                   after 30 minutes of inactivity, after which re-authentication is required.
                                   8.1.9. Lost or stolen devices are disabled and appropriately reported.
                         Yes
                                   (NIST SP 800-46, Section 4.3; US-CERT Incident Reporting Guidelines)
                                   8.1.10. Remote access rules of behavior are adequate in accordance with
                         Yes
                                   Government policies. (NIST SP 800-53: PL-4)
                                   8.1.11. Remote access user agreements are adequate in accordance with
                         Yes
                                   Government policies. (NIST SP 800-46, Section 5.1; NIST SP 800-53: PS-6)
                               8.2. Please provide any additional information on the effectiveness of the
                               organization’s Remote Access Management that was not noted in the questions
                               above.
                               8.3. Does the organization have a policy to detect and remove unauthorized
                         Yes
                               (rogue) connections?


9: Contingency Planning
Status of Contingency          9.1 Has the organization established an enterprisewide business
Planning Program                   continuity/disaster recovery program that is consistent with FISMA
[check one: Yes or No]   Yes       requirements, OMB policy, and applicable NIST guidelines? Besides the
                                   improvement opportunities that may have been identified by the OIG, does
                                   the program include the following attributes? 
                                   9.1.1. Documented business continuity and disaster recovery policy providing
                         Yes       the authority and guidance necessary to reduce the impact of a disruptive
                                   event or disaster. (NIST SP 800-53: CP-1)



                                                                                                            Page 14
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2013



                                 9.1.2. The organization has incorporated the results of its system’s Business
                                 Impact analysis into the analysis and strategy development efforts for the
                       Yes
                                 organization’s Continuity of Operations Plan, Business Continuity Plan, and
                                 Disaster Recovery Plan. (NIST SP 800-34)
                                 9.1.3. Development and documentation of division, component, and IT
                       Yes
                                 infrastructure recovery strategies, plans, and procedures. (NIST SP 800-34)
                       Yes       9.1.4. Testing of system-specific contingency plans.
                                 9.1.5. The documented business continuity and disaster recovery plans are in
                       Yes
                                 place and can be implemented when necessary. (FCD1, NIST SP 800-34)
                                 9.1.6. Development of test, training, and exercises programs. (FCD1, NIST
                       Yes
                                 SP 800-34, NIST SP 800-53)
                                 9.1.7. Testing or exercising of business continuity and disaster recovery plans
                       Yes
                                 to determine effectiveness and to maintain current plans.
                                 9.1.8. After-action report that addresses issues identified during
                       Yes
                                 contingency/disaster recovery exercises. (FDC1, NIST SP 800-34)
                                 9.1.9. Systems that have alternate processing sites. (FCD1, NIST SP 800-34,
                       Yes
                                 NIST SP 800-53)
                                 9.1.10. Alternate processing sites are not subject to the same risks as primary
                       Yes
                                 sites. (FCD1, NIST SP 800-34, NIST SP 800-53)
                                 9.1.11. Backups of information that are performed in a timely manner.
                       Yes
                                 (FCD1, NIST SP 800-34, NIST SP 800-53)
                       Yes       9.1.12. Contingency planning that considers supply chain threats.
                             9.2. Please provide any additional information on the effectiveness of the
                             organization’s Contingency Planning that was not noted in the questions above.


10: Contractor Systems
Status of Contractor         10.1 Has the organization established a program to oversee systems operated on
Systems [check one:              its behalf by contractors or other entities, including organization systems and
Yes or No]             Yes       services residing in the cloud external to the organization? Besides the
                                 improvement opportunities that may have been identified by the OIG, does
                                 the program include the following attributes? 
                                 10.1.1. Documented policies and procedures for information security
                                 oversight of systems operated on the organization’s behalf by contractors or
                       Yes
                                 other entities, including organization systems and services residing in a public
                                 cloud.
                                 10.1.2. The organization obtains sufficient assurance that security controls of
                       Yes       such systems and services are effectively implemented and comply with
                                 Federal and organization guidelines. (NIST SP 800-53: CA-2)


                                                                                                       Page 15
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2013




                                    10.1.3. A complete inventory of systems operated on the organization’s behalf
                                    by contractors or other entities, including organization systems and services
                                    residing in a public cloud.
                                    TIGTA Comments: In FY 2013, the IRS maintained two contractor managed
                                    systems in the Trusted Agent FISMA, the U.S. Department of the Treasury’s
                          Yes       system for reporting FISMA data. The IRS also maintained a list of 130
                                    contractor sites in FY 2013 that required annual security reviews because
                                    each handles or processes IRS information. The IRS Infrastructure and
                                    Security Review organization conducts reviews to ensure that security
                                    controls and standards are met and issues reports of findings to these
                                    contractors.
                                    10.1.4. The inventory identifies interfaces between these systems and
                          Yes
                                    organization-operated systems. (NIST SP 800-53: PM-5)
                                    10.1.5. The organization requires appropriate agreements (e.g.,
                                    Memorandums of Understanding, Interconnection Security Agreements,
                          Yes
                                    contracts) for interfaces between these systems and those that it owns and
                                    operates.
                          Yes       10.1.6. The inventory of contractor systems is updated at least annually.
                                    10.1.7. Systems that are owned or operated by contractors or entities,
                                    including organization systems and services residing in a public cloud, are
                          Yes
                                    compliant with FISMA requirements, OMB policy, and applicable NIST
                                    guidelines.
                                10.2. Please provide any additional information on the effectiveness of the
                                organization’s Contractor Systems that was not noted in the questions above.


11: Security Capital Planning
Status of Security              11.1 . Has the organization established a security capital planning and investment
Capital Planning [check              program for information security? Besides the improvement opportunities
                          Yes
one: Yes or No]                      that may have been identified by the OIG, does the program include the
                                     following attributes? 
                                    11.1.1. Documented policies and procedures to address information security
                          Yes
                                    in the capital planning and investment control process.
                                    11.1.2. Includes information security requirements as part of the capital
                          Yes
                                    planning and investment process.
                                    11.1.3. Establishes a discrete line item for information security in
                          Yes
                                    organizational programming and documentation. (NIST SP 800-53: SA-2)
                                    11.1.4. Employs a business case/Exhibit 300/Exhibit 53 to record the
                          Yes
                                    information security resources required. (NIST SP 800-53: PM-3)


                                                                                                          Page 16
   Treasury Inspector General for Tax Administration – Federal
Information Security Management Act Report for Fiscal Year 2013




                11.1.5. Ensures that information security resources are available for
      Yes
                expenditure as planned.
            11.2. Please provide any additional information on the effectiveness of the
            organization’s Security Capital Planning that was not noted in the questions
            above.




                                                                                        Page 17
                       Treasury Inspector General for Tax Administration – Federal
                    Information Security Management Act Report for Fiscal Year 2013



                                                                                                      Appendix I


             Detailed Objective, Scope, and Methodology

Our overall objective was to provide an annual independent evaluation of the effectiveness of the
IRS’s information technology security program and practices, and to assess the progress made by
the IRS in meeting the responsibilities established by the NIST and the OMB. The following
11 evaluative sections are taken directly from the DHS FY 2013 Inspector General Federal
Information Security Management Act Reporting Metrics, issued on November 30, 2012.
       1.    Continuous Monitoring Management.
       2.    Configuration Management.
       3.    Identity and Access Management.
       4.    Incident Response and Reporting.
       5.    Risk Management.
       6.    Security Training.
       7.    Plan of Action and Milestones.
       8.    Remote Access Management.
       9.    Contingency Planning.
       10.   Contractor Systems.
       11.   Security Capital Planning.
To accomplish our objective, we reviewed a judgmental sample1 of 10 major IRS information
systems from a total of 75 major applications maintained in the Trusted Agent FISMA system as
of April 11, 2013. We selected a judgmental sample because we did not plan to project the
results. We conducted tests to determine the appropriate level of performance that the IRS has
achieved for each of the security program areas. We also evaluated completed TIGTA work
during the FISMA period, as well as audits from the GAO, and determined its applicability to the
FISMA questions.
Based on our evaluative work, we indicated with a yes or no whether the IRS had achieved a
satisfactory level of performance for each security program area as well as each specific attribute
listed in the DHS FY 2013 Inspector General Federal Information Security Management Act
Reporting Metrics. The Department of the Treasury Office of Inspector General will combine



1
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                               Page 18
                 Treasury Inspector General for Tax Administration – Federal
              Information Security Management Act Report for Fiscal Year 2013



our results for the IRS with its results for the non-IRS bureaus and submit the combined yes or
no responses to OMB.




                                                                                         Page 19
                Treasury Inspector General for Tax Administration – Federal
             Information Security Management Act Report for Fiscal Year 2013



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Kent Sagara, Director
Jody Kitazono, Audit Manager
Midori Ohno, Lead Auditor
Charles Ekunwe, Senior Auditor
Bret Hunter, Senior Auditor
Mary Jankowski, Senior Auditor
Esther Wilson, Senior Auditor
Tina Wong, Senior Auditor




                                                                                     Page 20
                Treasury Inspector General for Tax Administration – Federal
             Information Security Management Act Report for Fiscal Year 2013



                                                                    Appendix III

                         Report Distribution List

Acting Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Office of the Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner for Operations Support OS
Chief Technology Officer OS:CTO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                          Page 21
              Treasury Inspector General for Tax Administration – Federal
           Information Security Management Act Report for Fiscal Year 2013



                                                                           Appendix IV

 Treasury Inspector General for Tax Administration
  Information Technology Security-Related Reports
Issued During the Fiscal Year 2013 Evaluation Period

 1. TIGTA, Ref. No. 2012-20-099, Audit Trails Did Not Comply With Standards or Fully
    Support Investigations of Unauthorized Disclosure of Taxpayer Data (Sept. 2012).
 2. TIGTA, Ref. No. 2012-20-112, An Enterprise Approach Is Needed to Address the
    Security Risk of Unpatched Computers (Sept. 2012).
 3. TIGTA, Ref. No. 2012-20-109, The Customer Account Data Engine 2 Database Was
    Initialized; However, Database and Security Risks Remain, and Initial Timeframes to
    Provide Data to Three Downstream Systems May Not Be Met (Sept. 2012).
 4. TIGTA, Ref. No. 2012-20-115, Using SmartID Cards to Access Computer Systems Is
    Taking Longer Than Expected (Sept. 2012).
 5. TIGTA, Ref. No. 2013-20-016, Significant Delays Hindered Efforts to Provide
    Continuous Monitoring of Security Settings on Computer Workstations (Jan. 2013).
 6. TIGTA, Ref. No. 2013-20-023, Improvements Are Needed to Ensure the Effectiveness of
    the Privacy Impact Assessment Process (Feb. 2013).
 7. TIGTA, Ref. No. 2013-20-030, Integrated Financial System Updates Are Improving
    System Security, but Remaining Weaknesses Should Be Addressed (Mar. 2013).




                                                                                   Page 22
